Electronic Document Jun 12 2020 11:18:02 2019-CP-01361
Pages 2
Serial: 232243
IN THE SUPRME COURT OF MISSISSIPPI
NO.2019-CP-01361
CHARLES L. STRINGER

Appellant

V.
STORESONONLINE, INC, AND CREXENDO, INC
Appellees
ORDER
Before the panel of King, P.J., Coleman and Ishee, JJ.,
Appellees' Motion to Dismiss Appeal and Appellant
Response to Motion to Dismiss Appeal and Appellant's
Request to Strike Motion to Dismiss.
After due consideration, the panel finds Appellees'
Motion to Dismiss Appeal is well-taken and should be
granted. Further, Appellant's Request to Request to Strike
Motion to Dismiss is hereby denied.
The instant appeal is Appellant third appeal in this
matter, and each prior appeal has resulted in dismissal
because Appellant has been attempting to appeal
interlocutory order, Appellant provides no new
information in the instant filing that would warrant any
other outcome. The warns Appellant that future filing in
this deemed frivolous could subject him to sanctions.
Appendix "A"

Electronic Document

Jun 12 2020 11:18:02

2019-C P-01361

Pages: 2

Serial: 232243
IN THE SUPREME COURT OF MISSISSIPPI
No. 2019-CP-01361
CHARLES L. STRINGER

Appellant

v.
STORESONLINE, INC. AND CREXENDO, INC.

Appellees

ORDER
Before the panel of King, P.J., Coleman and Ishee, JJ., are Appellees' Motion to
Dismiss Appeal and Appellant's Response to Motion to Dismiss Appeal and Appellant's
Request to Strike Motion to Dismiss.
After due consideration, the panel finds Appellees' Motion to Dismiss Appeal is welltaken and should be granted. Further, Appellant's Request to Strike Motion to Dismiss is
hereby denied.
The instant appeal is Appellant's third appeal in the matter, and each prior appeal has
resulted in dismissal because Appellant has been attempting to appeal an interlocutory
order. Appellant provides no new information in the instant filing that would warrant any
other outcome. The Court warns Appellant that future filings in this matter deemed
frivolous could subject him to sanctions.

IT IS, THEREFORE, ORDERED that Appellees' Motion to Dismiss Appeal is hereby
granted. All costs associated with the appeal are assessed to Appellant.
IT IS FURTHER ORDERED that Appellant's Request to Strike Motion to Dismiss is
hereby denied.
SO ORDERED.

DIGITAL SIGNATURE
Order#: 232243
Sig Serial: 100001933
Org: SC
Date: 06/12/2020

(ATpsiah Dennis Coleman, Justice

2

Case 25CHl:15-cv-1651 Document 59 Filed 04/25/2019
Page lof 3
Case: 25CHl:15-cv-01651 Document #: 72 Filed
11/13/2019 Page 14 of 24
IN THE CHANCERY COURT OF THE FIRST JUDICIAL DISTRICT
OF HINDS COUNTY, MISSISSIPPI
CHARLES L. STRINGER
V.

PLAINTIFF
CIVIL ACTION NO. G-2015-1651

STORESONLINE, INC., and
CREXENDO, INC

DEFENDANTS
ORDER OF THE COURT

BEFORE THE COURT is Plaintiff's Second Amended
Motion to Alter or Amend this Judgment. This Court
entered it Order of Dismissal in this action on September
1, 2016. On September 13, 2016, this Court entered its
Order Denying Plaintiff's Motion to Alter or Amend. On
September 29, 2016, Plaintiff filed his Notice of Appeal.
The Appeal was dismissed by Order of Mississippi Supreme
Court on August 24th, 2017. Plaintiff's request for
reconsideration of the dismissal has also been denied. On
October 5, 2017, Plaintiff filed an Amended Motion to
Alter or Amend Judgment. This Court denied the Amended
Motion to Alter or Amend on November 7, 2017. On
November 30, 2017, Plaintiff filed his Second Notice of
Appeal. The Mississippi Supreme Court dismissed the
appeal by Order dated
Clerk Papers 14

Case 25CHl:15-cv-1651 Document 59 Filed 04/25/19
Pages 2 of 3
Case 25CH1:15-cv-01651 Document # 72 Filed 11/13/2019
Page 15 of 24
August 31, 2018. On April 23, 2019, Plaintiff filed the
current Second Amended Motion to Alter or Amend this
Judgment.
Plaintiffs Second Amended Motion is procedurally
improper. This Court entered an Order of Dismissal based
upon Rule 12(b)(6) on September 1, 2016. Appeal of such
dismissal was taken and denied. Subsequent to appeal,
Plaintiff again sought to have this Court alter or amend.
This Court denied this same as procedurally improper.
Upon appeal of that decision, the Mississippi Supreme
Court dismissed the appeal. There is simply no procedural
basis to request alteration or amendment of the 2016
Order some two and half years later. Plaintiff has had
numerous "bites at the same apple" and all have been
dismissed or denied. There is simply no further triable
action before this Court. Plaintiff is directed that the
matter has been fully adjudicated and no further motions
to alter or amend or reconsider will be entertained. Should
Plaintiff to pursue these improper attempts to relitigate,
this Court will be forced to consider appropriate sanctions
for frivolous filings.
Finally, even if the Second Amended Motion were
properly before this Court, Plaintiff offers no new
information that this Court failed to consider in its original
decision. Plaintiff again alleges that the Court's
determination is incorrect, but provide no evidence or
precedent that would permit this Court to reconsider it
initial determination. There has been no showing of
mistake, inadvertence, newly discovered evidence or fraud
in this matter. Likewise, Plaintiff has provided no cause for
a reconsideration of this matter. The carefully considered

Order of this Court was properly entered and no
circumstances exist which would warrant a
reconsideration of
Clerk Papers 15
Case 25CHl:15-cv-1651 Document 59 Filed 04/25/2019
Page 3 of 3
Case 25CHl:15-cv-01651 Document # 72 Filed 11/13/2019
Page 16 of 24
Such, Therefore, Plaintiffs Second Amended Motion to
Alter or Amend Judgment is hereby denied.
SO ORDERED, ADJUDGED, AND DECREED THIS the 25th, day
of April, 2019.

"s/".
CHANCELLOR J. DEWAYNE THOMAS

Appendix "B"

Case 25CHl:15-cv-1651 Document 15 Filed 03/23/2016
Page 1 of 1
IN THE CHANCERY COURT OF THE FIRST JUDICIAL DISTRICT
OF HINDS COUNTY, MISSISSIPPI
PLAINTIFF

CHARLES L. STRINGER

CAUSE NO 15-1651 W/4

VS.

DEFENDANT

STORESONLINE, INC.
ORDER OF RECUSAL

THIS CAUSE came before this Court on a Motion for
Permanent Injunction. The Court, finding that it has
jurisdiction over the person and subject matter herein, and
considering all other facts and matters relative thereto,
finds that it will be necessary and proper for Chancellor
PATRICIA D. WISE to recuse herself from any further
actions in this case. The Chancery Clerk is hereby ordered
to transfer this cause using the rotation of chancellors in
the computer system.
SO ORDER, ADJUDGED AND DECREED, this the 23rd,
day of March, 2016.

"s/".
Patricia D. Wise
CHANCELLOR
Appendix "C"

IN THE SUPREME COURT OF MISSISSIPPI
[Filed August 29, 2018]
No. 2017-CP-01673
CHARLES LAVEL STRINGER
Appellant
v.
STORESONLINE INC. AND
CREXEDDO, INC.
Appellees
Consolidated with 2016-CP-01449
CHARLES LAVEL STRINGER
Appellant
v.
STORESONLINE INC. AND
CREXEDDO, INC.
Appellees
ORDER
The matter is before the panel of Kitchens, P., J., King and
Maxwell, JJ., on the Motion to Dismiss Appeal filed by
Storesonline, Inc. and Crexendo, Inc., and the Response
and Request to Strike Motion to Dismiss filed by Appellant.
Appellees ask that the appeal due consideration, the panel
finds that the Motion to Dismiss Appeal is well taken and
should be granted.
IT IS THEREFORE ORDEDED that the Motion to
Dismiss Appeal filed by Storesonline, Inc., and Crexendo,

Inc. is granted. This appeal is dismissed upon entry of this
entry of this order. Cost of appeal, if any are taxed to
Appellant.
SO ORDERD, this the 29th.dav of August, 2018.
/s/ Leslie D. King
LESLIE D. KING, JUSTICE

Appendix "D"

IN THE CHANCERY COURT OF THE FIRST JUDICIAL DISTRICT
OF HINDS COUNTY, MISSISSIPPI
[Filed November 7, 2017]
CIVIL ACTION NO. G-2015-1651
CHARLES L. STRINGER
PLAINTIFF
V.
STORESONLINE, INC., and
CREXENDO, INC.
DEFENDANTS
ORDER OF THE COURT
BEFORE THE COURT is Plaintiffs Amended Motion
to Alter or Amend this Judgment. This Court entered its
Order of Dismissal in this action on September 1, 2016. On
September 13, 2016, this Court entered its Order Denying
Plaintiffs Motion to Alter or Amend. On September 29,
2016, Plaintiff filed his Notice of Appeal. The Appeal was
dismissed by Order of the Mississippi Supreme Court on
August 24, 2017, Plaintiff filed the current Amended
Motion to Alter or Amend Judgment. Plaintiffs Amended
Motion is procedurally improper. This Court entered an
Order of Dismissal based upon Rule 12(b)(6) on September
1, 2016. Appeal of such dismissal was taken and denied.
There is simply no procedural basis to request alteration or
amendment of the Order some thirteen (13) months later.
Furthermore, even if the Amended Motion were properly
before this Court, Plaintiff offers no new information that
this Court failed to consider in its original decision. Plaintiff
again alleges that the Court's determination is correct, but
provides no evidence or precedent that would permit this
Court to reconsider it initial determination. There has been

no showing of mistake, inadvertence, newly discovered
evidence or fraud in this matter. Likewise, Plaintiff has
provided no cause for a reconsideration of this matter.
The carefully considered Order of this Court was properly
entered and no circumstances exist which would warrant a
reconsideration of such. Therefore, Plaintiff's Amended
Motion to Alter or Amend Judgment is hreby denied.
SO ORDERED, ADJUDED, AND DECREED THIS the
7th, day of November, 2017.
/si J. Dewavne Thomas
CHANCELLOR J. DEWAYNE THOMAS

Appendix "E"

IN THE SUPREME COURT OF MISSISSIPPI
No. 2016-CP-01449
[Filed August 22, 2017]
CHARLES LAVEL STRINGER
Appellant
V.
STORESONLINE, INC.
Appellee
ORDER
This is before the panel of Dickinson P.J., Coleman and
Beam, JJ., on the Motion to Dismiss Appeal filed by
Storesonline, Inc. and Crexendo, Inc.., and the Response
filed by Appellant. Appellees ask that the appeal be
dismissed, alleging that it is interlocutory. After due
consideration, the pan finds that the Motion to Dismiss
Appeal is well taken and should be granted. The Request
to Strake Motion to Dismiss should be denied.
IT IS THEREFORE ORDERED that the Motion to
Dismiss filed by Storesonline, Inc and Crexendo, Inc. is
granted. This appeal is dismissed upon entry of this order.
Cost of appeal, if any are taxed to Appellant.
IT IS FURTHER ORDERED that the Request to Strike
Motion to Dismiss filed by Appellant is denied.
/s/ Jess H. Dickinson
JESS H. DISKINSON
PRESIDING JUSTICE
Appendix "F"

IN THE CHANCERY COURT OF THE JUDICIAL, DISTRICT OF
HINDS COUNTY, MISSISSIPPI
CIVIL ACTION NO. G-2015-1651
[Filed September 13, 2016]
CHARLES L. STRINGER
PLAINTIFF
V.
STORESONLINE, INC and
CREXENDO, INC.
DEFENDANTS
ORDER OF THE COURT
BEFORE THE COURT is Plaintiffs Motion to Alter or
Amend this Court's dismissal of its Complaint against
Defendants herein. Specifically, this Court dismissed the
Complaint under the doctrines of both collateral estoppel
and res judicata. This Court found that Plaintiff sought to
re-litigate matters which had been fully adjudicated on
two (2) separate occasions. Plaintiff now seeks to have this
Court alter or amend its findings.
However, Plaintiff offers no new information that
this Court failed to consider in its original decision. Plaintiff
alleges that the Court determination is incorrect, but
provides no evidence or precedent that would permit this
Court to reconsider its initial determination. There has
been no showing of mistake, inadvertence, newly
discovered evidence or fraud in this matter. Likewise,
Plaintiff has provided no cause for a reconsideration of this
matter. The carefully considered Order of this Court was
properly entered and no circumstances exist which would

warrant a reconsideration of such. Therefore, Plaintiffs
Motion to Alter or Amend Judgment is hereby denied.
SO ORDERED ADJUDGED, AND DECREED THIS the
13th day of September, 2016.
/s/J. Dewavne Thomas
CHANCELLOR J. DEWAYNE THOMAS

Appendix "G"

IN THE CHANCERY COURT OF THE FIRST JUDICIAL, DISTRICT
OF HINDS COUNTY, MISSISSIPPI
CIVIL ACTION NO. G-2015-1651
[Filed September 1, 2016]
CHARLES STRINGER
PLAINTIFF
V.
STORESONLINE, INC and
DEFENDANTS
ORDER OF DISMISSAL
THIS CAUSE is before the Court on Defendants'
Motion to Dismiss under Rule 12(b)(6) of the Mississippi
Rule of Civil Procedure. This Court held hearing on the
matter and has reviewed all the pleadings of the parties as
well as all relevant statutory and case law. After careful
review, this Court finds that the motion is well taken and
should be granted.
Plaintiff Charles Stringer made a purchase from
Storesonline on January 23, 2008. Plaintiff's purchase was
specifically included in a nationwide class action titled Hill
v. Storesonlin, Inc. which was settled on January 13, 2010.
The class action resolved and dismiss the claims of all
Settlement Class members that fit the following
description: "All persons who purchased any product or
service from Defendants from January 1, 2005 to
December 31, 2008." In connection with the settlement,
Plaintiff executed a release covering claims "of whatsoever
nature, character or kind, whether known or unknown,
suspected or unsuspected, owned or held, from the

beginning of the world to the date of his release, for upon,
or by an reason of any matter, cause or thing whatsoever,
against the Release Parties.
Subsequently, Plaintiff brought another action
through the American Arbitration Association {"AAA"). This
action was based solely upon Plaintiff's January 23, 2008,
purchase from Storesonline. After hearing all arguments
and receiving all evidence, the arbitrator dismisses
Plaintiffs claims and Storesonline to pay Plaintiff the sum
$390.00, which constituted certain costs and an offse for
hosting fees that Plaintiff could have avoded had he
applied the credit that he may have received from the
class action settlement. Plaintiff received, and cashed a, a
check for this full sum from Crexendo. The AAA arbitration
award delineated that it was a 'full settlement of all claims
and counterclaims submitted to this Arbitration. All claims
not expressly granted herein are hereby denied.
On November 12, 2015, Plaintiff files the current
action. The basis of Plaintiff's Complaint is the same
purchase that has previously been addressed in both the
class action settlement and the AAA arbitration. In both of
these previous matters, Plaintiff executed a full release of
all claims, Plaintiff herein seeks to relitigate a matter which
has been fully and finally adjudicated on two (2) separate
instances. Plaintiff's claims are barred by doctrine of
collateral-estoppel and res judicata. This Court will not
allow Plaintiff to "relitigated, determined by, and essential
to the judgment in a former action... "Baker & McKenzie,
LLP v. Evans> 123 So. 3d 387, 401 (Miss. 2013). Instead, this
Court must find that Plaintiff will be unable to prove any
set of facts which would support the relief requested.
Accordingly, this Court must grant the Defendants' Motion
to Dismiss and dismiss the Plaintiff's Complaint for failure
to state a claim upon which relief can be granted under
Rule 129(b)(6). Such dismissal shall be with prejudice.

SO ORERED, ADJUDGED, AND DECREED THIS THE If day of
September, 2016.
/s/ J. Dewavne Thomas
Chancellor J. Dewayne Thomas

Appendix "H"

IN THE SUPRME COURT OF MISSISSIPPI
No. 2017-CP-01673
[Filed November 14, 2018]
CHARLES LAVEL STRINGER
Appellant
V.
STORESONLINE INC., AND
CREXENDO, INC.
Appellees
Consolidated with: 2016-CP-01449
CHARLES LAVEL STRINGER
Appellant
V.
STORESONLINE INC., AND
CREXENDO, INC.
Appellees
ORDER
This matter is before the panel of Waller, C.J.,
Coleman and Chamberlin, JJ., on the Petition for Rehearing
filed pro se filed pro se by Charles Lavel Stringer. By order
dated August 29, 2018, another panel of this Court
dismissed this appeal. Stringer ask that the appeal be
reinstated. After due consideration, the panel finds that
the Petition for Rehearing is not well taken and should be
denied.

IT IS THEREFORE ORDERED that the Petition for
Rehearing filed pro se by Charles Lavel Stringer is denied.
SO ORDERED, this the 14 day of November, 2018.
/s/ Robert P. Chanberlin
ROBERT P. CHAMBERLIN, JUSTICE

Appendix "I"

Constitutional and Statutory Provisions
U.S Const, amend. 1
Congress shall make no law respecting an establishment or
religion, or prohibiting the free exercise thereof, or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to petition
the government for redress of grievances.
U.S. Const, amend. VI
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the state and district wherein the crime shall have been
committed, which district shall have been committed,
which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the
accusation; to be confronted with witnesses against him;
to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his
defense.
U.S. Const, amend. XIV
Section 1.
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the
laws.
Section 2.
Representatives shall be apportioned among the several
states according to their respective numbers, counting the
whole number of persons in each state, excluding Indians
not taxed. But when the right to vote at any election for

the choice of electors for President and Vice President of
the United States, Representatives in Congress, the
executive and judicial officers of a state, or the members
of the legislature thereof, is denied to any of the male
inhabitants of such state, being twenty-one years of age,
and citizens of the United States, or in any way abridged,
except for participation in rebellion, or other crimes, the
basis of representation therein shall be reduced in the
proportion which the number of such male citizens shall
bear to the whole number of male citizens twenty-one
years of age in such state.
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President, or
hold any office, civil or military, under the United States, or
under any state, who having previously taken an oath, as a
member of Congress, or as an officer of the United States,
or as a member of any state legislature, or as an executive
or judicial officer of any state, to support the Constitution
of the United States, shall have engaged in insurrection or
rebellion against the same, or given aid or comfort to the
enemies thereof. But Congress may be a vote of two-thirds
of each House, remove such disability.
Section 4.
The validity of the public debt of the United States
authorized by law, including depts incurred for payment of
pensions and bounties for services in suppressing
insurrection or rebellion, shall not be questioned. But
neither the United States nor any state shall assume or pay
debt or obligation incurred in aid of insurrection or
rebellion against the United States, or any claim for the
loss or emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.

The Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.
28 U.S.C. & 1654
In all courts of the United States the parties may plead and
conduct their own cases personally or by counsel as, by
the rules of such courts, respectively, are permitted to
manage and conduct cause therein.
Miss. Code Ann. & 11-1-17
All chancellors or judges of the chancery and circuit courts
of the state of Mississippi shall render their final decree on
any and all matters taken under advisement by such
Chancellors or judges not later than six(6) months after the
Date when sane are taken under advisement or no later
than Six (6) months after the date on which the
chancellors or Court or judge set as a date for the final
brief or memoranda of authority is required to be filed on
or as to the cause taken Under advisement, which ever is
the latest date after the date On which the cause or case is
taken under advisement. In the Event a final decree has
not been entered within the six months Period
hereinbefore referred to, then any party to said law suit
shall have the right to appeal on the record as otherwise
provided The same as if a final decree has been rendered
adversely. Said Appeal shall be to the supreme court of the
State of Mississippi And shall be treated as a preferred
case over other cases except Election contests.

Appendix "J"

Electronic Document

Sep 24 2020 09:11:45

2019-CP-01361

Pages: 1

Serial: 233857
IN THE SUPREME COURT OF MISSISSIPPI
No. 2019-CP-01361
Appellant

CHARLES L. STRINGER
v.
STORESONLINE, INC. AND CREXENDO, INC.

Appellees

ORDER
The instant matter is before the panel of Randolph, C.J., Maxwell and Griffis, JJ., on
the Petition for Rehearing filed by Charles L. Stringer.

Stringer asks this Court to

reconsider its prior order dismissing Stringer’s appeal.
After due consideration, the panel finds that Stringer’s petition for rehearing is not welltaken and should be denied.
IT IS THEREFORE ORDERED that the Petition for Rehearing filed by Charles L.
Stringer is hereby denied.
SO ORDERED.

DIGITAL SIGNATURE
Order#: 233857
Sig Serial: 100002589
Org: SC
Date: 09/23/2020

I

t

T. Kenneth Griffis, Jusffci

